<html>
<title> - [H.A.S.C. No. 111-159] NATIONAL DEFENSE AUTHORIZATION ACT
FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION </title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-159]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST FOR ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL 
                     GUARD TRAINING AND OPERATIONS

                               __________

                              HEARING HELD
                             APRIL 27, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13






                  U.S. GOVERNMENT PRINTING OFFICE
58-105                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
                  Doug Bush, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Katy Bloomberg, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, April 27, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for Army Reserve, Army 
  National Guard and Air National Guard Training and Operations..     1

Appendix:

Tuesday, April 27, 2010..........................................    25
                              ----------                              

                        TUESDAY, APRIL 27, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
 ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD TRAINING AND 
                               OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Carpenter, Maj. Gen. Raymond W., USA, Acting Director, U.S. Army 
  National Guard.................................................     6
Stultz, Lt. Gen. Jack C., USA, Chief, U.S. Army Reserve..........     3
Wyatt, Lt. Gen. Harry M., III, USAF, Director, U.S. Air National 
  Guard..........................................................     5

                                APPENDIX

Prepared Statements:

    Carpenter, Maj. Gen. Raymond W...............................    62
    Castle, Hon. Michael N., a Representative from Delaware......    34
    Forbes, Hon. J. Randy........................................    33
    Ortiz, Hon. Solomon P........................................    29
    Stultz, Lt. Gen. Jack C......................................    35
    Wyatt, Lt. Gen. Harry M., III................................    50

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Kissell..................................................    82
    Mr. Ortiz....................................................    81
    Mr. Reyes....................................................    81
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
 ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD TRAINING AND 
                               OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Tuesday, April 27, 2010.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2117, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The subcommittee will come to order. Today the 
Readiness Subcommittee meets to receive testimony on the fiscal 
year 2011 budget request for training for the Army Reserve, 
Army National Guard, and Air National Guard.
    Witnesses have also been asked to provide their views on 
current training operations and the future needs of their 
respective components. I thank our distinguished witnesses from 
the Army and Air Force for appearing before the subcommittee 
today, and thank you for your service and all the great things 
that you do for our country. All of them have had distinguished 
military careers and we just are so happy that you are with us 
this morning. We lack a few members but they will be coming in 
as we move along with the testimony.
    Since the 9/11 terrorist attacks, hundreds of thousands of 
Americans serving in these components of our military, the Army 
Reserve, Army National Guard and Air National Guard, have been 
mobilized and deployed on missions both here, at home and 
overseas. Today more than 98,000 soldiers and airmen from these 
elements of our country are on active duty carrying out 
missions that cover the full range of military activities. Each 
one of them has left behind their families and put their 
civilian jobs on hold as they serve the Nation. Those soldiers 
and airmen not mobilized on active duty also continue to serve 
and stand ready to support domestic authorities in the event of 
a natural disaster or emergency.
    Clearly the high number of troops mobilized today attest to 
the fact that the Reserve elements of our military are no 
longer a ``strategic'' Reserve intended to be rarely used. 
These Reserve Components are now clearly ``operational,'' 
Operational Reserves that support, augment, and assist our 
active duty forces on a routine and continuing basis.
    We look forward to hearing today just how this 
transformation was accomplished, and what it means to the 
soldiers and airmen who have served and continue to serve. We 
also look forward to hearing how the fiscal year 2011 budget 
request matches up with the expected missions and operations.
    Finally, and most critically, we look forward to hearing 
how we maintain these components as an ``Operational Reserve'' 
in the future, and even as the war in Iraq begins to end. As of 
today, many questions on this issue remain unanswered, 
including: How much will it cost each year to maintain our 
Reserve forces at their current level of activity? How many 
Reserve soldiers and airmen can we expect to have mobilized in 
future years? If the Reserves return to a ``Strategic Reserve'' 
status, what will it mean for the quality of the force and for 
recruiting and retention? Over the long term is it possible 
that the size of our Reserve forces may need to grow? If so, in 
what way?
    These are the issues we will be exploring today. And our 
witnesses today are Lieutenant General Jack Stultz--General, it 
is so good to see you again, sir. He is the United States 
Commanding General for the Army Reserve Command; Lieutenant 
General Harry M. Wyatt, III, Director for the Air National 
Guard; and Major General Raymond W. Carpenter, Acting Director 
for the Army National Guard.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 29.]
    Mr. Ortiz. The chair recognizes the distinguished gentleman 
from Virginia, Mr. Forbes, for any remarks the he would like to 
make. Mr. Forbes.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Well, thank you, Mr. Chairman. I would like to 
echo your appreciation for our three witnesses today, their 
service to our country, and the great job that they do with our 
men and women.
    We meet again to discuss the readiness of some of our 
Reserve Component forces. The Department of Defense (DOD) 
continues to face budgetary pressures against the backdrop of 
the ongoing war on terror, continued high operations tempo, and 
a need to recapitalize much of its aging equipment.
    There is no doubt that the challenges facing the Department 
of Defense are significant. Years of underfunded procurement 
accounts continue to manifest in aging fleets of aircraft ships 
and vehicles. This aging equipment is costly to maintain, 
offers reduced reliability, and requires increased manpower to 
keep it serviceable. Nowhere is this more evident than in the 
National Guard and the Reserves.
    The Reserve Component has faced many additional challenges 
because it started this long war positioned as a Strategic 
Reserve. For decades we postured the National Guard with the 
Cold War mindset. We believed we could accept risk in equipping 
and training the Guard because we thought there would be a 
clear unambiguous signal to get them ready. We also believed 
there would be sufficient time to field the equipment and get 
them trained before they would be needed on the battlefield.
    We have learned many lessons since September 11, 2001. We 
have learned that there is not time to ready the Guard from a 
Strategic Reserve posture because the threat doesn't allow it, 
because the industrial base can't support it, and because 
natural disasters like Hurricane Katrina come with little or no 
warning.
    The need for a trained, well-equipped, and integrated 
Reserve Component is clear. However, I believe we must be 
patient and thoughtful as we continue to transition from a 
Strategic Reserve to an Operational Reserve. We knew this 
transition would take years and require substantial investment, 
even if there were no other operational demands on the National 
Guard and the Reserves. I also understand that reality gets a 
vote when you are at war. I am aware that in some cases, 
equipment slated for the Reserve Component was redirected to 
Afghanistan in support of the surge. That was the right thing 
to do in order to meet the deployment timeliness set by the 
combatant commander. And we must continue to balance strong 
support for our troops in harm's way in Afghanistan and Iraq 
with our efforts to modernize and fully equip the Reserve 
Components.
    In a hearing on this matter in 2008, I remarked that in 
order to be successful in operationalizing the Reserve 
Component we must be patient, we must have a solid plan of 
action, and we must provide the funding stream necessary to 
make it happen. I still believe that to be true. Now that we 
are two years down the road, I hope our witnesses will be able 
to give us an update on how things are going.
    I also look forward to a discussion on sufficiency of the 
fiscal year 2011 budget request and an opportunity to 
understand more about the comprehensive review of the future 
role of the Reserve Component as proposed in the Quadrennial 
Defense Review.
    Once again, thank you for being here, thank you for your 
service. Mr. Chairman, thank you for holding this hearing and I 
yield back the balance of my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 33.]
    Mr. Ortiz. Before we go into the testimony, after 
consultation with the minority, I now ask unanimous consent 
that Mr. Michael Castle be authorized to question the panel 
members at today's hearing. Mr. Castle will be recognized after 
all House Armed Services Committee members have had an 
opportunity to ask questions. Hearing no objection, so ordered.
    Mr. Ortiz. We are going to go ahead and listen to the 
testimony now. General Stultz you can begin, followed by 
General Wyatt and General Carpenter. Thank you, sir.

  STATEMENT OF LT. GEN. JACK C. STULTZ, USA, CHIEF, U.S. ARMY 
                            RESERVE

    General Stultz. Chairman Ortiz, Congressman Forbes, first 
and foremost thank you for the support that you and your 
committee and Congress has given to the Army Reserve over the 
past several years. As you indicated in your statement, we have 
been and continue to transition from what was a Strategic 
Reserve force into an operational force. And it has, as 
Congressman Forbes indicated, been a slow, methodical process 
accelerated by the demand of the current conflicts and extended 
conflicts.
    I think the good news that I can tell you is today the Army 
Reserve has authorized 205,000 soldiers, to grow to 206,000 by 
fiscal year 2013. Today in my ranks, I have 207,749 so I am 
almost 2,750 over my authorized strength.
    Just last Friday here in the Capitol, I conducted a 
reenlistment ceremony for 60 Reserve soldiers representing all 
50 states, plus the territories of Guam and American Samoa, 
and, by the way, did a virtual reenlistment with one soldier in 
Germany who was unable to be here because of the volcanic ash. 
But our retention rates are exceeding our goals; our recruiting 
rates are exceeding our goals. So the good news is the soldiers 
we have in our ranks today joined our Army, or reenlisted in 
our Army, since 9/11/2001. They know what they have gotten 
into, and so they are joining the Army Reserve knowing that 
they are going to be called upon in an operational context.
    The challenge we have is we are still being funded or 
budgeted based on the old strategic model of one weekend a 
month, two weeks in the summertime. So we are dependent upon 
Overseas Contingency Operation (OCO) funding to operate as an 
Operational Reserve.
    We have implemented a training strategy using a regional 
training center concept where we position equipment and 
position training resources in various regions of the country. 
We bring our units into those locations prior to the 
mobilization cycle to give them the best training on the most 
modern equipment. That has resulted in a reduction in our post-
mobilization training time from what used to be about 70 to 80 
days to now about 30 to 40 days. So we are getting 10 to 11 
months boots-on-the-ground time with our soldiers in theater. 
And the one thing the soldiers tell me is, ``Don't waste my 
time. If you are going to use me, use me.''
    So we are making great progress. But again, our funding for 
those operations of those regional training centers depends on 
overseas contingency funds. We have got to get that training 
strategy and we have got to get that operational training model 
into our base budgets by fiscal year 2012. We are working 
diligently with the Chief of Staff the Army and others over the 
1217 program to put the operational training strategy into the 
1217 budget.
    The other thing I would highlight is the equipment. While 
we send every soldier into theater, whether Iraq or 
Afghanistan, with the best trained and most modern equipment, 
we don't have that same level of equipment back home to train 
on in a lot of cases. And just as importantly, with the trained 
and combat-seasoned force we have now, with those soldiers who 
have done multiple deployments, it becomes a morale factor when 
a soldier who has been to Iraq or Afghanistan, or both places, 
operating the latest and greatest equipment, the highest 
technology available, but comes back home to look at a 35-year-
old truck sitting in the motor pool. And so we have to continue 
to press for the equipment.
    The National Guard and Reserve Equipping Accounts (NGREA) 
that we are dependent upon are so critical to us to give us the 
flexibility to buy the right equipment in prior times where we 
need to, so that we can get that most modern equipment back 
home for those soldiers to train on.
    Another area of focus for us is medical, dental readiness. 
We have made huge strides in that capacity, but, again, trying 
to get to a level of 80 percent or better in medical readiness, 
we are only funded to get to about 65 percent right now, and so 
it continues to be a challenge.
    So I think in summary, what I would tell you is the good 
news is the Army Reserve is an operational force, the morale is 
high, our recruiting and our retention are at record levels, 
but we still need to press because we are dependent upon 
overseas contingency ops right now, funding, instead of getting 
that model put into a base program. So I look forward to your 
questions and, again, thank you for your support.
    Mr. Ortiz. Thank you, sir.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 35.]
    Mr. Ortiz. General Wyatt.

STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, U.S. 
                       AIR NATIONAL GUARD

    General Wyatt. Chairman Ortiz, Ranking Member Forbes, 
distinguished members of the subcommittee, thanks for the 
opportunity to appear before you today and share information 
about the readiness posture of our Air National Guard.
    As you know, our authorized end strength is 106,700. And I 
am proud to report today that our current end strength is 
108,403, about 1,700 airmen over and above our end strength.
    In my previous life as the Adjutant General (TAG) of 
Oklahoma, I had the opportunity to command Air and Army and 
National Guard units. And I will tell you that as I watched the 
Army National Guard become more of an operational force after 
9/11, I couldn't help but make the comparisons between the Air 
National Guard and the Army National Guard. And from my current 
position, it is encouraging, and I think a key point of our 
readiness in the Air National Guard is we have about 30 percent 
of our force is full-time and resourced, which helps us 
maintain our readiness in the Air National Guard. I have 
watched the Army National Guard, from my perch as the Adjutant 
General of Oklahoma, get better through the years. But I am 
thankful that we get the support that we do from the Air Force 
as far as the support of our full-time force.
    Obviously, the strength of the Air National Guard in 
addition to the full-time force is our drill-status guardsmen. 
We continue to deploy at unprecedented rates. Since 9/11 we 
have deployed over 146,000 Air National Guardsmen; this last 
year alone, we deployed 18,366 guardsmen to 62 countries, to 
every continent in the world, including Antarctica. We do that 
at about a 75 percent volunteerism rate, relying upon 
mobilization for only about 25 percent of the requested forces.
    As we look to our readiness as far as quantities of 
equipment, we are in pretty good shape as far as quantities, 
but always struggle with the quality of our equipment, spending 
most of our NGREA on dual-use modernization, for dual-use 
equipment, state and federal. We look to the importance of that 
account to help modernize our equipment, because for us to 
remain operational it is important that we integrate fully into 
the total force. We would be able to fly the same equipment, 
operate the same systems, so that we can truly be an 
operational force.
    We have been operational basically since the first Gulf War 
and have transitioned through the great support of the Air 
Force to an equal partner, I think, in the total Air Force. We 
provide about a third of the Air Force capability, for about 7 
percent of the budget, which I think points out the 
efficiencies that we manage to practice in the Air National 
Guard and the value that we bring to America.
    We continue to struggle as we move from sunset missions to 
emerging missions with training our force and converting from 
those old missions to the new missions. And so while the budget 
adequately funds our training and equipping, we share with the 
Air Force and with the Air Force Reserve limited seats in some 
of the emerging capabilities; capabilities like TACPs, Tactical 
Air Control Parties, and the individuals, especially the 
enlisted individuals who serve in that critical career field.
    Even though we are above our end strength we do have some 
critical areas, especially in the officer corps, where we are 
1,500 officers short. We have critical areas as far as 
chaplains, intelligence officers, engineers, air mobility air 
crews, individuals who take a high degree of education and also 
a lot of training to get them on the step and fully 
operational. And because of the limited numbers of training 
seats, we share equitably with the active duty and with the Air 
Force Reserve, but we are all struggling with trying to get the 
requisite number of our airmen through those training programs.
    I would be happy to answer the questions of the committee 
as we get further into this morning's presentation. Thank you, 
Mr. Chairman.
    Mr. Ortiz. Thank you.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 50.]
    Mr. Ortiz. General Carpenter.

   STATEMENT OF MAJ. GEN. RAYMOND W. CARPENTER, USA, ACTING 
               DIRECTOR, U.S. ARMY NATIONAL GUARD

    General Carpenter. Chairman Ortiz, Ranking Member Forbes, 
distinguished members of the subcommittee, I am honored to 
represent more than 362,000 citizen soldiers in the Army 
National Guard, and, as I speak, 52,807 of our soldiers are 
serving in harm's way for this Nation. The sacrifice of those 
soldiers, their families, and their employers is something we 
must not only acknowledge but certainly appreciate.
    The National Guard of today is dramatically different from 
the one I joined over four decades ago. The last eight years 
have seen the Guard transform to an operational force. The 
enablers for the Army National Guard have been provided by and 
sustained by congressional initiatives. We thank you for your 
continued support, and today I would like to talk to you a 
little bit about readiness.
    As all of you know, the Army National Guard has had a 
significant evolution in the last eight years. The U.S. Army 
employs the Army National Guard units as an operational force. 
Units mobilize and deploy from different states, territories, 
and provide support to overseas contingency operations and to 
the homeland defense missions. Our units maintain high levels 
of readiness, achieving outstanding results in both state and 
federal missions.
    The key to the readiness of our operational National Guard 
is our personnel, equipment readiness, and facilities. We 
continue to emphasize and improve the quality of our force as 
we maintain our assigned strength. Today I am proud to report 
that the Army National Guard Military Occupational Specialties 
(MOS) qualification rate exceeds 90 percent, a historic figure. 
We also continue to strengthen our combat, maintenance, 
aviation, simulation, and qualification training centers.
    The Army National Guard has made significant progress 
modernizing and converting to an operational force. As a result 
of transformation, the Army National Guard's structure was 
expanded to include 114 brigades. This includes 28 combat 
brigades, 38 functional brigades, and 48 multifunctional 
brigades across 54 states, territories and a district. The Army 
National Guard has moved along with the active Army from a 
division-centric force to a more flexible brigade-centric force 
and is restructuring to create units that are more stand-alone 
and alike while enhancing full-spectrum capabilities.
    Despite equipment shortages, the Army National Guard met 
all mission requirements and continued to support overseas and 
domestic missions. The current equipment levels in the Army 
National Guard are 77 percent of all equipment on hand. 
Critical dual-use equipment, a subset of Army National Guard 
equipment that can be used for both the warfight, as well as 
emergencies and disaster operations, has reached an on-hand 
percentage of 83 percent with 66 percent of that available to 
the Governors in the states and territories.
    During fiscal year 2009 the Army G8 released a new Army 
equipping strategy that establishes a goal of at least 80 
percent equipment on hand for critical dual use for all Army 
National Guard units, regardless of their rotational cycle in 
the Army's fourth generation model.
    The National Guard Reserve Equipment Account has been 
especially important in our pursuit of equipping the force. The 
Army National Guard via the National Guard Reserve and 
Equipment Account received $770 million in fiscal year 2006, 
1.1 billion in fiscal year 2007, 1.3 billion in fiscal year 
2008, and 779 million in fiscal year 2009. This funding has 
been used for critical dual-use items to support what we call 
the essential 10 capabilities provided to each state, those 
being command and control, communications, aviation, force 
protection, engineering, logistics, maintenance, medical 
security, and transportation.
    Thanks to NGREA, for example, we will retire the venerable 
``deuce-and-a-half,'' the M35 deuce-and-a-half truck from our 
inventory in fiscal year 2011, a vehicle which was first 
introduced in 1949 and continued to be manufactured in 1950.
    The continued support of Congress is critical in several 
other areas. We need the Congress to fully fund our budget 
request for Operations and Maintenance (O&M) funds. These are 
critical to readiness. When those funds are reduced or 
redirected to other priorities, unit readiness suffers 
directly.
    For manning, we are asking the Armed Services Committee to 
improve an increase in the Army National Guard's civilian non-
dual status technicians. These civilian technicians who do not 
deploy are critical to the continuous provision of 
administrative and financial functions needed to support our 
military personnel who do deploy. Please support that request, 
increasing from 1,600 to 2,520 in non-dual status technicians.
    We are asking Congress's continued support for the National 
Guard facilities with military construction as well as 
sustainment funds. We have a lot of old Cold War buildings, no 
longer adequate for the operational force, so we need your help 
to modernize those facilities.
    In closing I would like to say that I am confident that the 
Army National Guard will continue to be a full partner in the 
U.S. Army's total force. As an Operational Reserve, we need to 
maintain our readiness levels, provide full-time manning, equip 
and train our units to meet the combatant commanders' 
expectations in a recurrent, predictable cycle, while 
maintaining our capabilities to respond to the domestic 
mission.
    We need Congress to continue to support, to properly 
maintain our readiness levels, and to be able to meet the 
expectations of our Nation and its citizens. Our goal is to 
achieve full-spectrum readiness for the Army National Guard 
units and full deployment readiness upon mobilization.
    I appreciate the opportunity to be here today and look 
forward to your questions and thank you for your support.
    Mr. Ortiz. Thank you so much.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 62.]
    Mr. Ortiz. I am going to begin with a question from you, 
General Carpenter. Somebody just said the other day that your 
vehicles run on diesel fuel, jet fuel, but that this 
institution runs on rumors. What we have heard and it is my 
understanding that the Pentagon officials are considering using 
the Army National Guard for any funding in future years because 
they believe the Army cannot get access to the Army National 
Guard unit that is needed. I just want to know is this true or 
is this a rumor, and what are your thoughts on this issue?
    General Carpenter. Sir, we are having discussions about 
assured access to the Reserve Component and the National Guard, 
and they center around what happens when the demand in 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF) decline; will the Army have a continued access to the 
National Guard? The Chief of Staff of the Army has a model that 
says on a rotational basis there is a requirement in three bins 
for one corps, five divisions, 20 brigade combat teams, and 
90,000 personnel enablers. And our part of that in the Army 
National Guard is to provide one division, five brigade combat 
teams, and somewhere around 40,000 of those enablers.
    I would say that the best representation of assured access 
to the National Guard can be found in a couple of areas. The 
National Guard will be ready and will respond when required, 
regardless of the environment, and the response that was 
provided in 9/11, I think, demonstrates that fairly well. 
Whether it be in New York or Pennsylvania or in the Pentagon, 
we will respond.
    In terms of rotational and ready access, we are exceeding 
our recruiting requirements. Our retention rate is 115 percent, 
our soldiers are staying with us in this volunteer force after 
eight years. I think that as you look at that conceptually, if 
those soldiers were not willing to be part of an Operational 
Reserve, they would have left us a long time ago. And that is 
not happening.
    The other connection here that is important for us to 
remember --and from my generation in Vietnam--the connection 
between the Army and the communities that generate our Army is 
important. And the National Guard provides that connection. We 
just had homecoming ceremonies for the 30th brigade, a brigade 
out of North Carolina. Half of North Carolina showed up to 
welcome that brigade home. We also had a homecoming ceremony 
for the 34th Division up in Minnesota. Again, half of St. Paul 
and Minneapolis showed up to welcome those soldiers home.
    So I think there is a will on the part of the operational 
piece of our soldiers who sign up for this mission to want to 
be employed. The question is whether we will employ them and 
whether we will fund the Operational Reserve.
    Mr. Ortiz. You know, when I severed in the Army, I came out 
and I was on a Reserve unit in Corpus Christi. And I think 
that, from my experience, you all do a heck of a job in 
defending our country and being ready to defend it in case that 
we might have to. All we have to do is look at what is 
happening to the south of us, and we need to give you what you 
need.
    You know, maintaining an Army National Guard costs only a 
fraction of what an active duty unit costs. How can the Army 
take advantage of this efficiency in the years ahead of us? 
Maybe you can give us a little input into that.
    General Carpenter. Sir, the calculations that have been 
done by the Army National Guard and the Army Reserve in this 
area show that it costs about 32 cents on the dollar to have a 
Reserve Component unit, a National Guard unit available for 
employment. Even when we are called to active duty and mobilize 
and deploy, we still are a bargain because we only represent 90 
percent of what the active component soldier costs. And so in 
terms of a business case for the Army National Guard, I don't 
think there is any question that there are savings to be 
garnered in terms of investment in the Army National Guard and 
the Army Reserve and the Air National Guard.
    There is a balance, of course, in terms of how big the 
active component is and how big the Reserve Component is. And I 
think as we go forward in the future, that will be certainly a 
discussion item.
    Mr. Ortiz. I have one more question for General Stultz, and 
then I want to allow members to ask questions because this is a 
very important hearing. General, what kind of changes have you 
made to the Army Reserve's training system to accommodate the 
new demands in the Army Reserve and how could the system evolve 
into the future?
    General Stultz. Yes, sir. As I mentioned in the opening, 
one of the changes we made--first of all, we have gone to the 
fourth generation cycle, a five-year program with four years 
back home for every one year deployed. And in that every four-
year buildup to that deployment, we have developed a training 
strategy that increases the number of training days in years 
three and four to accommodate building a higher level of 
readiness than what we were able to do in a Strategic Reserve.
    In order to do that and as I indicated earlier, in order to 
make sure that the soldiers are training on the latest 
equipment, the most modern equipment, and getting the best 
training available, we have tried to develop a regional 
training approach. We have established regional training 
centers at our installations at Fort Hunter Liggett; Fort 
McCoy, Wisconsin; Fort Dix, New Jersey; and other places. There 
we provided a cadre of trainers that are the experts. So all 
the warrior leader tasks that are required for any soldier 
deploying into Iraq or Afghanistan, they are able to go to 
those installations and get the top-of-the-line training. That 
saves a lot of time on the other side of mobilization, so that 
they are able to get more time in theater, boots-on-the-ground 
time.
    But it also allows us, with the rapid fielding initiative 
(RFI), where they are getting the latest equipment, uniforms, 
helmets, sights, all those types of things that normally they 
wouldn't get until they get to a mobilization station, we can 
position that RFI at those locations. And when the soldier goes 
to do his weapons qualification, he qualifies with the right 
weapon, with the right sights, with the right helmet with 
everything, again, saving a lot of time. The feedback from the 
soldiers, they are telling us, ``This is the best training I've 
ever had. Well worth my time. You are not wasting my time.''
    Our next level, we are establishing what we call the Combat 
Support Training Centers (CSTC). And our CSTCs, as we are 
calling them, are focusing on the collective training, those 
logistics-type or enabler-type units, again in that 
premobilization phase, so they can come in and train as a unit 
in a collective format and, again, save that time of, when you 
get mobilized you are not sitting in a mobilization station 
doing training, wasting time, you can get on to the mission in 
theater.
    As I indicated earlier, those types of training activities 
are currently being funded by OCO. It is costing us around 250 
million RPA and about 250 million O&M to run those types of 
operations. We are mobilizing, or keep mobilized, around 30,000 
soldiers; so a significant number of soldiers going through 
that training every year at a significant expense, but well 
worth the dollar, just as General Carpenter indicated, when you 
look at what return on investment we are getting as a Nation 
from our Reserve forces.
    Mr. Ortiz. Thank you, sir. The chair recognizes my good 
friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Gentlemen, again thank 
you for your comments today.
    I have two questions, would love to have your responses to 
both of those, and I will throw them both out so you can do 
them together. One of the concerns we always have and we 
recognize is that it is critical in developing a force that is 
ready and has strong leadership throughout the ranks to have a 
good professional military education program. One of the things 
we always worry about is with the demands on the force, the 
unique structure of the Reserve Components may not allow 
individuals to pursue educational and professional development 
opportunities.
    So my first question for any of you who care to respond is, 
What comments would you give us on that? Do you think that 
program is working well? Are we providing those opportunities? 
Is there something else that we need to do?
    And then kind of a take-off of a little comment you made, 
General Carpenter, about simulation centers. How do the three 
of you see modeling and simulation now as an attribute that 
perhaps you can utilize in terms of training or even some of 
your operational functions; how important is that with reduced 
expenses and costs that we have and the utilization that you 
can make of those two components?
    So, any of you in whatever order that you care to do.
    General Stultz. Yes, sir. On the first question on 
professional education, it is a challenge. With the operational 
tempo and the fact that our soldiers are citizen soldiers, they 
have a civilian job as well as a military job, and trying to 
fit all the requirements plus a professional education in the 
amount of time they have got available is tough. We have made 
great use of distributed learning distance education to get our 
professional education requirements.
    For instance, in the Army War College, we have most of our 
lieutenant colonels and colonels going through the distance 
learning program. A lot of them will tell you it is a lot 
tougher program than the residents face, because, one, they are 
trying to balance a civilian career but at the same time they 
are also doing a lot of coursework.
    I think where we are struggling right now, where we need to 
focus is on the joint education. Our soldiers are getting joint 
experience in deployments, but in their joint professional 
education, there are limited opportunities because there is not 
as much available through a distributed or distance learning 
program.
    Currently, if you go to the resident war college, you get 
credit for joint professional education. But if you take the 
distance learning course, you don't. There is not very much 
difference. So that is where we are pressing the Army and the 
Office of the Secretary of Defense (OSD) to say, ``Let's get 
joint credit for our distance learning courses.'' We do have 
Advanced Joint Professional Military Education (AJPME) through 
a distance course, but through the War College and other 
courses like that.
    On the other question: Simulation, I think, is the future. 
Obviously we are using it now, but just what I said in the 
opening statement. Well, that soldier who has been in combat 
and he has worked on the latest techniques, tactics, 
procedures, he has worked with the latest equipment, the last 
thing I can do is bring him back home and say, ``Go to your 
drill center next weekend and sit in a classroom and listen to 
somebody give you a lecture.'' He wants hands-on.
    The problem is we can't put him in the same environment he 
just came from back in hometown America, but we can through 
simulations. There are a lot of great simulation systems out 
there for vehicle operations, for watercraft operations, for 
light infantry operations, clearing buildings, things like 
that. But they cost money.
    I am going down next Monday to Orlando, Florida to the 
Simulation Training Command and to a couple of other companies 
that are in that area just to look at their simulation systems 
that they have got. But they come with a price tag.
    But I think we have to figure out a way of either making 
simulations available on a regional basis or being able to make 
them available on a mobile basis, so you can get it out there 
to that soldier and put him in the right training environment 
that is going to retain his skills but also going to retain him 
as a soldier.
    General Wyatt. Congressman Forbes, on behalf of the Air 
National Guard, professional military education is extremely 
important to all of our members, officers and enlisted. You 
kind of hit the nail on the head when you talked about the 
demands for acquiring that professional military education 
(PME), especially as it relates to our drill status guardsmen. 
We, like the Army National Guard, rely heavily upon the 
distributed learning system to afford access from homes or from 
the wing to the education systems. But it is imperative that we 
continually modify and improve those learning systems.
    Just recently, as far as a commissioning program, an 
example of joining with the Air Force and with the Air Force 
Reserve, we have moved our commissioning from McGhee Tyson, 
Tennessee to partner up with the Air Force at Maxwell Air Force 
base and the Air Force Reserve. But because most of our members 
are prior service and have military experience before they are 
commissioned, the need for a lengthy commissioning program is 
not a requirement of ours, but the Air Force has allowed us to 
maintain our shorter commissioning program; but because we are 
at the same location as the Air Force and Air Force Reserve, we 
have a shared common experience that helps us to become more of 
the total force. So I like the progress in that area.
    As far as resident seats, we see greater opportunities for 
guardsmen to access some of the resident seats. We are always 
asking for more. We see guardsmen who, as we become more 
operational, decide in their lives that they have more time to 
spend in residence, and so we are looking for increased 
resident seats to help us with our PME. We share the same 
concerns as the Army National Guard does with joint PME. We 
think that is necessary to develop our officer and enlisted 
corps for follow-on assignments in the joint world.
    And to answer your modeling and simulation, I think that is 
an area that we need to invest in more heavily. The quality of 
the simulators is so much better today, the type of work that 
is required of air crew and even non-air crew can be very well 
simulated. We can now link up the live world, a live training 
world, a virtual world, and a simulation world through 
networking of all of our simulators. So I think it is critical 
that we invest in that.
    When we talk about the expense of flying aircraft, which is 
necessary to do certain levels of training, there is a large 
block of training that can be accomplished very well in 
simulators; and the saved expenses and the saved wear and tear 
on the aircraft make that investment vital. And I think you 
will see, as we acquire new weapons systems in the future, 
that, in addition to the platforms, that there will be great 
interest put into the simulators that go along with that to 
make us a better total force.
    Thank you, sir, for the question.
    General Carpenter. Congressman, from the Army National 
Guard perspective, professional military education is 
absolutely essential for us to be able to conduct our business, 
whether it is education in the technical side of the house or 
whether it is leadership oriented. Very, absolutely important 
and critical for us.
    We have seen a backlog now in Non-Commissioned Officer 
Education System (NCOES) as a result of mobilization and 
deployments. We are in the midst of trying to work that 
particular backlog off. We have got about 40,000 soldiers that 
need to go to some level of NCOES out there, and we have a plan 
to mitigate that over the next couple of years.
    From the Office of Professional Military Education, we have 
actually seen some successes there because we have been 
allocated slots in resident courses that were left vacant by 
our active component counterparts as they mobilized and 
deployed. And so that has provided a greater opportunity for us 
to send some of our officers to resident courses that they 
would not have otherwise had the opportunity to do.
    We have also seen an increase in the number of what we call 
SAMS (School of Advanced Military Studies) graduates, which is 
an accelerated intermediate program at Fort Leavenworth that 
has allowed more National Guardsmen to participate in that 
particular program to round out their professional military 
education.
    In the area of simulations and distance learning, we have 
339 distance learning centers around the Army National Guard. 
And our challenge is now to be able to refresh those in the 
long term and, again, we have some funding issues there that we 
are working with the Army in terms of trying to make sure that 
we stay abreast of the latest technology in those distance 
learning centers.
    We also spend a lot of time doing exercises related to 
those simulations. We have an exportable Combat Training Center 
package that we use as part of the deployment process to 
validate battalion- and brigade-level organizations before they 
deploy, as well as Battle Command Training Centers in Fort 
Leavenworth and Fort Indiantown Gap.
    Probably the most successful simulator I have seen is the 
Mine Resistant Ambush Protected Vehicle (MRAP) simulator. I am 
not sure what the statistic is for us in the Army National 
Guard but the G3 of the Army says that 30 percent of the 
soldiers they enlist into the Army have never had a driver's 
license. And so when you take that 30 percent and you put them 
in an oversized, high-center-of-gravity vehicle and expect them 
to operate it safely, there is a fair amount of training that 
has to take place. If you put them in an MRAP simulator, it is 
a no-fault situation where you can roll that MRAP over and 
nobody gets hurt, and you get a chance to start at the 
beginning of the process and train.
    So there are some excellent simulators out there that are 
provided by the technology we see around the country.
    Mr. Forbes. We don't have time today because as the 
chairman said we want to get to some other questions, but I 
will leave you maybe with a request that at some point in 
time--Chairman Ortiz and I both co-chaired the Modeling 
Simulation Caucus, and we would love if you have time--and I 
know you have a lot on your plate--at some point in time to get 
your thoughts of how we can coordinate better what we are doing 
with modeling and simulation for all of you to utilize; whether 
you submit that to us in writing or perhaps meet with us 
individually to do that, because I'm like you, I think that is 
kind of the wave of the future. We get a lot of bang for our 
buck and want to make sure we are not duplicative in what we 
are doing, and would love to chat with you further about that.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Ortiz. The chair recognizes Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I thank the 
witnesses for their testimony today.
    Actually, in the state of Connecticut, in a short span of 
time in March and early April, the Connecticut National Guard 
demonstrated, again, their incredible importance in value to 
our state and Nation. At the end of March, we were hit by 
terrible floods, which actually President Obama just declared a 
disaster designation for the state of Connecticut in terms of 
the terrible weather that occurred there. The Connecticut 
National Guard was called out. They saved millions of dollars 
of property with the pumper trucks that were deployed.
    There was a sewer treatment plant in the town of Jewett 
City that was literally about an inch away from just being 
totally overwhelmed by rising waters. A National Guardsman dove 
into the Quinnipiac River with the hose that was needed to set 
up the pumper and literally saved the day. And the people of 
that community are so grateful for the amazing talent and 
training, and obviously courage, that was displayed there.
    On Easter Sunday, a convoy in Afghanistan carrying a number 
of Connecticut National Guardsmen was hit by an Improvised 
Explosive Device (IED); again, a couple of soldiers over at 
Walter Reed recovering from that terrible event.
    And we now have the largest deployment of Connecticut 
National Guardsmen in Iraq and Afghanistan. It is the largest 
since the Korean War. At every end of the spectrum, we are 
seeing the amazing contribution that these volunteer warriors 
are providing to our state.
    And I guess the question I want to ask, it sort of touched 
on some of the earlier exchanges, was the event that occurred 
Easter Sunday, luckily the soldiers were in an MRAP vehicle. 
Again, Mr. Taylor's leadership in terms of increasing the size 
of MRAPs over the last few years has paid off in terms of saved 
lives over and over again. But, obviously, Afghanistan has 
posed a little bit of a challenge because of the roads there, 
and some of the guardsmen that I have spoken to have said that 
they are still in a situation where some use of Humvees is 
still a reality there because of the need to reconfigure the 
MRAP axle.
    I am just sort of wondering if there is any issue at all in 
terms of guardsmen that are deployed in Afghanistan not having 
adequate use or access to the MRAP vehicles which obviously 
provide far greater protection than the Humvees.
    General Carpenter. Yes, sir. The Army and the Department of 
Defense have expended a huge amount of effort and funding to 
get the new modern MRAP All-Terrain Vehicle (M-ATV) version of 
the MRAP into Afghanistan, and they have put forth Herculean 
efforts. It has taxed the air transportation piece of DOD and 
the commercial fleet almost to the breaking point. So there is 
a huge effort being applied towards that.
    I know that we have had discussions with the Army with 
regard to the future of Humvees and the fact that they are not 
allowed off from the forward operating bases in Iraq. They are 
not supposed to be off from the operating bases in Afghanistan 
after the M-ATV is fully fielded.
    My impression is that we have almost completed the fielding 
of the M-ATV in Afghanistan. So if there are Humvees still 
being used in those operations, I would suggest to you it won't 
be much longer and they will be replaced. There is a time, 
space, and physics part of this when you introduce a new piece 
of equipment; and that is, to get the piece of equipment into 
theater to be used by our forces. So to the best of my 
knowledge, I believe that if there are Humvees being used 
there, they are being used in a limited manner. And I would say 
they won't be used much longer after the complete fielding of 
the M-ATVs.
    Mr. Courtney. Thank you. Having spoken to the mother of one 
of the soldiers over at Walter Reed, she got a crash course in 
the value of the MRAP vehicle and wanted me to express the 
urgency to make sure that as many of our folks over there have 
that protection, and certainly wanted me to encourage the 
Congress to continue its efforts to make sure that we have a 
full fleet to make sure that transporting people and equipment 
is done in the safest manner possible.
    Thank you for your follow-up on that effort. I yield back.
    Mr. Ortiz. Thank you. Mr. Castle.
    Mr. Castle. Thank you very much, Mr. Chairman. Let me just 
thank both you and the ranking member and the generals who are 
here for what is a nice hiatus in some of my committee meetings 
which tend to be a lot more political, not always in the best 
interest of the country. You all are serving our country well 
and we appreciate that tremendously.
    General Wyatt, I would like to ask you a couple of 
questions of the transfers of the C-130s which affects our 
Delaware Air National Guard, because one of those planes would 
be from the National Guard. Just reading through all my notes, 
I am having trouble understanding exactly how many planes we 
are talking about here. I have anything from 12 to 18 to 16 to 
21. So you can straighten me out on that.
    But I understand, at least the press has reported, this may 
not be accurate. The press reported you have been tasked by the 
Air Force to develop an alternative plan to the proposed fiscal 
year Air National Guard budget. And that is where all this 
appeared, by the way, that would transfer the C-130H aircraft 
from several states to Little Rock Air Force Base in Arkansas. 
I just wanted to ask you questions about that. The Air Force's 
rationale for the planned transfer was based in part on 
Mobility Capabilities and Requirements Study (MCRS) 2016 that 
projects a decrease in the number of C-130s required that 
already been challenged.
    Did the U.S. Air Force request the Air National Guard input 
or suggestions on developing courses of action prior to the 
President's budget being released to the Congress?
    General Wyatt. Congressman, thank you for the question. I 
am pretty familiar with the C-130 process. Basically what 
happened was as the Quadrennial Defense Review was released, as 
the Mobilities, Capabilities Requirement Studies was nearing 
completion, the headquarters staff had visibility into the 
preliminary findings of the MCRS. Now, this was back in the 
November-December time frame as we were preparing, helping 
prepare the Air Force budget.
    As it turns out, the MCRS did not change much from that 
draft study. And what that told the Air Force was that there 
was excess capacity in the C-130 fleet.
    Through the Air Force corporate process, a decision was 
made to reduce and retire some of the older C-130s, primarily 
the E models and some of the early Hs. The Air National Guard 
did participate up to a particular point in the process, but, 
you know, we don't have the tie-breaking vote. So when we saw 
what the proposal was, and the proposal was to retire Es and Hs 
that were primarily resident in the active component at Little 
Rock being used to train C-130 legacy training, legacy being 
the training for H 2s, 2.5s and 3s, whereas the J model, 
primarily owned and operated by the active component, most of 
that training was done by the active component.
    So when the decision was made to retire the Es and Hs, 
there was a need at Little Rock to provide aircraft to do the 
legacy training that was done by an active component wing 
there. So the initial PB-11 (Presidents Budget for Fiscal Year 
2011) to backfill the need to train provided the removal--
permanent transfer of I think it was 12 Air National Guard 
tails from nine different states. In addition to that, there 
were six C-130E models in Puerto Rico that were not part of the 
training picture, but because they were E models--and the 
schedule to retire in 2014 that was accelerated to 2011.
    And then there were three, I think, fighter support 
aircraft, earlier H models, that were actually Air Force 
Reserve airplanes but were being operated by the Air National 
Guard that were also to be retired.
    As we neared the budget submissions the Reserve Component, 
myself, General Stenner, Commander of the Air Force Reserve, 
worked with the Headquarters Air Force staff representatives 
from Air Education Training Command, Air Mobility Command, and 
the headquarters Air Force staff to start looking at an 
alternative plan, did not have the opportunity to fully vet 
that alternative plan before the deadline approached for the 
submission. So the Air Force went ahead and submitted the 
transfer, permanent transfers of tails that I just mentioned, 
that included I think eight Air Force Reserve tails, too, as 
part of the PB-11, with the instruction to continue working an 
alternative plan. And we have continued to do that and in fact 
are nearing completion with the alternative plan.
    The alternative plan complies with the President's budget 
as far as the savings generated to the Air Force and 
accomplishes the goal of retiring some of the earlier Es and 
Hs, but instead of a permanent transfer of the tails from 
various National Guard units and various states to Little Rock, 
what it involves is not a transfer of personnel but a loan of 
those tails. In other words, the aircraft would remain on the 
books of the Air National Guard but temporarily be loaned to 
Little Rock for purposes of training. And we are setting up 
under the alternative plan an ARC (Army Reserve Command) 
association with the Guard and Reserve to handle the old legacy 
training, if you will. And then as the legacy C-130 training 
drops off in the 2014-2015 time range and as the C-130J 
training comes up, those tails that have been loaned by the 
states will be returned back to those states that had loaned 
those--and they won't be all at once, they will be as the 
training demand diminishes--then we will start distributing 
those back out to the states, because the states' units are 
primarily combat operational units, and to preserve their 
operational capability it is in the best interest of the Air 
Force that those tails, when they are no longer needed for 
training, be transferred back to the Air National Guard.
    So that is kind of the alternative. Instead of a permanent 
take, it is a loan to address a rather short-term training 
need, but permanent ownership remains with the Air National 
Guard. And as early as we can, we will move those back out to 
the Adjutants General in the states.
    I visited with General Vavala, the TAG at Delaware, and 
several of the TAGs involved. I think we have a consensus. I 
have another video teleconference (VTC) with the involved TAGs 
this afternoon, as a matter of fact, to bring them up to date. 
And then we will see where the Air Force goes. Right now we are 
massaging the numbers to make sure that this is doable and 
still accomplishes the objectives as set forth in the 
President's budget.
    Mr. Castle. Thank you, gentlemen. My time is up, my 
questions are not. I would ask permission perhaps to submit 
some questions to you in writing. I have a statement for the 
record, if I may, with the consent of the chair.
    Mr. Ortiz. Without objection, so ordered.
    [The prepared statement of Mr. Castle can be found in the 
Appendix on page 34.]
    Mr. Ortiz. We try to stay within the 5-minute rule so that 
all members will have a chance to ask questions. Let me yield 
to my good friend, Mr. Reyes. Chairman Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And, gentlemen, thank 
you for your service and leadership at this very critical time.
    General Wyatt, just following up on my colleague's 
question, the issue of the C-130s you were just referring to 
was for training and not, as we have heard, the transfer of 12 
C-130s from the Guard to the active component that covers 
shortage of airlift capacity. Are those two different issues?
    General Wyatt. Basically, they are related, sir.
    Mr. Reyes. They are related?
    General Wyatt. They are related. The aircraft that were 
located in the states primarily dedicated to airlift, and 
satisfied some of the requirements of Air Mobility Command. 
That is why they were involved in this alternative plan that we 
moved forward. But because the budget retired some of the older 
Es and Hs that were used primarily for training at Little Rock, 
there was a need to backfill that training need, and so the 
transfer initially proposed under the budget as a permanent 
transfer was necessary.
    As we work through the alternative plan--and we realize 
that the training demand was not steady state through the 
outyears, that it would be decreasing--it opened up the 
opportunity to consider an alternative and that would be a loan 
of the tails by the Air National Guard and the Adjutants 
General to Little Rock, to be flown by primarily Air Force 
Reserve pilots and crew to handle the training. And then as the 
training began to drop off, as the C-130J training ramped up, 
then we would pump those tails back out to the states. So they 
are airlift-dedicated airplanes being temporarily used for 
training, but then going back to the airlift mission. Yes, sir.
    Mr. Reyes. But doesn't that mean a loss of airlift capacity 
under Title 32? And if so, how much of that loss will these 
transfers, temporary transfers, represent? And the reason I ask 
is because oftentimes when we have humanitarian or disaster 
relief assistance required, C-130s are the backbone of that 
airlift capability. And I am a little bit concerned that there 
is going to be some degradation of Title 32 capacity here.
    General Wyatt. While the tails are loaned, yes, sir, there 
would be a degradation. There would not be a permanent 
degradation as there would be under the budget. But under the 
alternative plan while those aircraft are on loan, they would 
be lost to the particular states. We believe that there are 
sufficient C-130s in the Air National Guard that could be 
accessed by one state to another that may have an additional 
need for C-130 airlift through the Emergency Management 
Assistance Compacts that the states have with one another that 
the Adjutants General work out. So for the Title 32 state 
mission requirements that a Governor may need, we believe that 
it will take a little extra work, and it will take a lot more 
coordination, but barring a huge catastrophe, we think there 
would be adequate airlift while we do the training mission, 
with the intent to get that airlift that you mentioned back to 
the states as quickly as we can.
    Mr. Reyes. And what is the projected timeframe that this 
vulnerability will exist?
    General Wyatt. We will have a total of, right now, there is 
an Air National Guard nine, primary assigned aircraft (PAA), 
nine-aircraft unit at Little Rock that does training, and that 
Air National Guard unit will be there even after the loan 
situation resolves itself.
    The additional airplanes that the Guard will bring in will 
be eight, I believe, and the Air Force Reserve will bring in 
10, for a total of 27 on location for their training. And so as 
the C-130J draws down, that Air National Guard unit that is 
there and does the training mission will remain in place. And 
we will then be able to transfer individual tails back out to 
the Guard and the Reserve as quickly as we can. We think that 
we will initially begin a year or two after we initially get 
those tails in there. And then by the 2014, 2015 time frame, we 
think----
    Mr. Reyes. So it is basically about a five-year period?
    General Wyatt. About a four- to five-year period at the 
longest, and there will be some states that won't be affected 
that long. Some states will be affected for a much shorter 
period of time.
    Mr. Reyes. Thank you. Thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Gentlemen, thank you 
for your service and for the service of those you lead. We 
appreciate that. I don't have so much a question as a comment 
and any kind of response that you would care to give as well.
    Every time I hear my colleagues or others propose solutions 
to domestic issues that involve the Guard, whether it is border 
security or police action in Chicago, whatever it is, my 
antennae go up because I worry about the--now that you are a 
tactical element as opposed to a strategic element--that those 
demands on the team, on top of continuing demands to go to 
Afghanistan and other places, will be something that we would 
need to know.
    If you get an order, you are going to make it happen, you 
are going to make it work. But to the extent that that 
requirement can't be fulfilled in the normal, annual training 
commitment, the normal annual work that you do, it goes beyond 
that. But it takes those folks away from jobs, away from 
families, and away from their lives in an unexpected way.
    How can we as policymakers understand the impact of a broad 
border security initiative of some sort or, I don't think the 
folks in Chicago were really serious about bringing the 
National Guard in to stand in on the corners there, but how do 
we understand the impact that would have on your team, as it 
relates to the continuing, you know, one-year work and every 
five years, that rotation, which is where we want to get to. 
Can you give us some thoughts on when you hear policymakers 
talk about using the Guard for solutions that aren't in a 
traditional guard role, what kind of contingency plans or plan 
to do you have in place to look at that?
    Any of the three. It probably doesn't affect the Air Guard 
as much but the other two.
    General Carpenter. Congressman, from the Army National 
Guard perspective, we have been living in this environment for 
the last nine years, whether it was an immediate requirement to 
provide airport security after 9/11, which we did for nine 
months without any incident and did it in an incredible manner 
thanks to soldiers we have inside our formations, or the 
Operation Jump Start, which was the border security piece that 
we completed about a year and a half ago. Those, although they 
are not the normal kinds of missions out there, those are 
missions that the National Guard in many cases was designed to 
respond to in a Title 32 status and to support the Governors 
out there as they go about their business.
    I would tell you that if I am breaking dwell or unannounced 
kinds of requirements out there, that does present some 
problems for some soldiers inside of our formation. We rely on 
the Adjutants General and the commanders throughout the chain 
of command to identify those soldiers that have an absolute 
serious problem where they can't mobilize and deploy and cross-
level other soldiers into those formations to be able to 
respond in that kind of a situation.
    So there is a process in place inside the states to 
accommodate or mitigate some of the issues for people that have 
hardship situations.
    General Stultz. From the Army Reserve's perspective, first, 
you know, being a Title 10 force, we do not get, obviously, 
call for the Title 32.
    However, I see that as probably a waste of resources in 
some cases. When we talk about homeland issues such as 
hurricanes or other disasters like that, quite often we use 
annual training as a mechanism because there is no other 
authority to call up the Army Reserve for those homeland events 
unless it is a weapons of mass destruction event.
    Yet we have, for instance, in the state of Texas, I have 
18,500 Army Reserve soldiers in the state of Texas, which are 
medical units, engineer units, logistics units, all types of 
capability, which in hurricanes go unused unless I take the 
initiative to use annual training as the mechanism.
    We have been saying for some time we think there should be 
legislation to allow the use of those Title 10 resources, both 
Army, Air and Navy and Marine Corps in those resources, for 
those homeland events. Because, as a taxpayer, the taxpayer 
doesn't know this is a Title 10 resource versus a Title 32. All 
they know is there is a lot of equipment sitting there in an 
Army Reserve center that is not being used when we need it, and 
those soldiers who live in those communities want to help. In 
most cases, we do the right thing, but we do it using training 
dollars versus operational dollars.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Ortiz. Chairman Taylor.
    Mr. Taylor. Thank you, gentlemen, for being with us and 
thanks for all you do for our Nation and the men and women that 
you represent. Major General Carpenter, I am going to direct 
this to you.
    I remain concerned that although the Army motto is ``we 
train as we fight'', that I don't really see a sufficient 
number of mine resistant vehicles at the training installations 
for the troops, particularly those who have not deployed once 
already, for them to get a good feel of the MRAP, getting in 
and out of it, driving that top-heavy vehicle around, the 
restrictions of the vehicle.
    I will use Mississippi's Camp Shelby as an example. I think 
we have got about two dozen MRAPs to train as many as 5- or 
6,000 troops at a time. That does not strike me as training as 
they fight. Keep in mind that if you have got two dozen on any 
given day, five or six are probably broken so that you really 
don't even have the two dozen.
    Given the enormous amount of equipment that is being drawn 
down out of Iraq--and I realize, thank goodness, a lot of these 
single-axle vehicles are being modified in Kuwait to a dual 
suspension where that can be used off road in Afghanistan--but 
I have still got to believe that there is a significant number 
of MRAPs, single-axle MRAPs, that are surplus to the inventory. 
To what extent are you and the other services trying to get 
those to training installations?
    General Carpenter. Sir, first of all, I talked to Major 
General Freeman specifically the other day on this specific 
subject. And, of course, as you know, Camp Shelby is certainly 
within his sphere of interest. He told me that they had 
delivered 18 M-ATVs to Camp Shelby for training within the past 
week.
    Mr. Taylor. Okay.
    General Carpenter. Your description of the situation, even 
in spite of those 18, is fairly accurate. There are too few 
vehicles to train on, too little time at the mobilization 
station for us to be able to get everybody through those 
trainers and to be able to qualify them.
    In the case of Iraq, the driver qualification for those 
vehicles happened primarily at Camp Buehring and that was done 
through a road test and a trainer course that was done there 
that required 70 hours of driving before the individual was 
licensed before they went up into Iraq and conducted 
operations. The Army is formulating a similar setup in 
Afghanistan to ensure that the drivers are qualified before, 
before they operate the vehicle.
    A combination of the simulation, M-ATV simulation trainer 
that I mentioned earlier and fielding of the actual vehicles, 
M-ATVs, is going to be the solution. You do get some value in 
training on any MRAP vehicle because you get the feel of a 
high-profile vehicle that is certainly an overweight vehicle on 
narrow roads. But to actually qualify, you have to be qualified 
on that vehicle.
    Again, as I mentioned earlier, the challenge here is that 
we have a limited number of vehicles and a limited amount of 
time, and our goal is to ensure that every driver that drives 
that vehicle and gets the license is qualified and validated no 
matter how much time it takes. But it is a problem.
    Mr. Taylor. This would be a question for you and General 
Schultz. In a fairly recent trip to Iraq visiting the 155th, a 
Colonel Van told me that he had an amnesty day, turn it in, no 
questions asked. He had a line of vehicles two miles long, just 
everything under the sun.
    I am curious, given that almost--after every conflict there 
seems to be some budget tightening, and with the Nation $13 
trillion in debt that has got to happen at some point. To what 
extent do your commands take a look at those things that are 
available in Iraq, and even if they are not on your 
requirements list, make a case for, gee, you know what, I would 
like to have that thing, whether it is a generator, or whether 
it is a track hoe, a bulldozer, all those things you are going 
to use after a natural disaster or weapons of mass 
destruction--to what extent do you have the freedom to reach 
out and get those things that the taxpayers have paid for and 
bring them home at what I would think would be a bargain price 
as opposed to a new acquisition?
    I know it is just one base, so if that is going on at 
Balad, multiply that times 30 to 50 major installations around 
Iraq, I have got to believe that there is a lot of stuff over 
there that has been purchased by the taxpayers and what I don't 
want to see ends up at the black market in Syria or Baghdad or 
even Iran, for all we know.
    General Carpenter. Yes, sir. After our last meeting here 
about a month and a half ago on this specific subject, and 
Colonel Van, the situation that you identified, we went back 
and we did the research. And those vehicles that were being 
turned into the amnesty point at that day, in fact, were being 
reintroduced into the system and are being either redistributed 
into Afghanistan or are scheduled to return to the United 
States or a part of a foreign military sales program.
    Sir, in addition to that, the discussion I had with you 
about having an individual in theater to be able to identify 
property that could be used by state and local governments for 
use in emergencies and disaster operations for their 
responsibilities, I think you will be happy to know--and I 
think the Army has notified you that they do have a person in 
theater right now who is doing that, and they are arranging for 
that property to be returned to the United States. And my--I 
believe the latest information I had was that there were state 
governments in Alabama that were going to have that equipment 
returned to them for their use.
    And so I would be happy to report, and I think that General 
Stevenson from the G-4 of the Army has the more detailed 
information that your efforts to have that property returned 
for state and local government use is, in fact, happening.
    Mr. Taylor. Well, I would welcome that report at your 
convenience, General.
    General Carpenter. Yes, sir.
    Mr. Taylor. Thank you. Again, General, thank you for all 
you gentlemen for what you do in war and peace for our Nation.
    Mr. Ortiz. Before I go to Mr. Johnson how did that 
equipment get out of the system?
    General Carpenter. Sir, I am not sure I am in a position to 
really describe, other--other than the accountability process 
in a time of war is probably less than ideal. Other than that, 
I would have to refer you to the Army or the theater commander 
for more details, sir.
    Mr. Ortiz. Thank you, because we would like to avoid what 
has happened in the past, you know. We have a lot of hurricanes 
in our area, and we need those, the equipment, and Mr. Taylor 
has put it real well, maybe you might say that is equipment 
that can only be used for the next year.
    Well, we have two hurricanes every year, and they would be 
used very professionally in our areas. So if we could just 
check into that, and we don't want to be losing any more 
equipment. We would like to have better accountability.
    General Carpenter. Sir, I would say that the equipment 
isn't necessarily lost, it is just the accountability of it 
isn't necessarily on the books, and so the equipment is in the 
hands of the U.S. forces and is being used by the U.S. forces. 
It is just that the documentation isn't necessarily 
accompanying all of the equipment and, again, that goes to some 
of the situations I described.
    Mr. Ortiz. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, back in the early 1980s, as a young man I 
considered going into the Army National Guard, and I was only 
looking at it from the standpoint of, you know, one weekend a 
month and two weeks during the summer, and the mission has 
changed drastically since that time. So I want to thank you and 
the people that you lead and their families, and your families 
as well, for the sacrifice that the Reserves and the National 
Guard units have been called upon to fulfill over the last 10 
years.
    Lieutenant General Wyatt, were any of those C-130 aircraft 
transferred from Georgia units, state of Georgia units?
    General Wyatt. Sir, I believe they were probably talking 
about the Savannah unit. Under the President's budget, they 
were scheduled to lose one airplane, but they were also 
scheduled to transition into a different version of airplanes. 
Under the alternative plan, I believe Georgia would be asked 
again to loan an airplane instead of lose a tail so, yes, sir, 
they were affected.
    Mr. Johnson. Let me ask another question, Lieutenant 
General Wyatt. The requirement for fighter aircraft has been 
reduced from 2,200 in 2008 to 2,000 for 2010. How will that 
reduction affect the Air National Guard's ability to perform 
the Air Sovereignty Alert (ASA) mission?
    General Wyatt. Thank you, sir. The ASA mission, the Air 
Sovereignty Alert mission, currently flown by the Air National 
Guard at 16 locations nationwide out of a total of 18 
locations. As you know, the 2010 combat Air Forces reduction, 
which you mentioned, took the total number of fighter aircraft 
in the combat forces from about 2,250 to 2,000. As we look at 
the air sovereignty mission in 2010 and in the outyears, we are 
okay right now. It did not affect our ability to carry on the 
Air Sovereignty Alert mission. But at those 16 locations, 10 
and sometimes 11 of those locations are flown by some of the 
older Block 30 F-16 units, which do have a life expectancy 
concern. Those are older airplanes, they are reaching the end 
of their service life. We think most of that have fleet will 
age out about 2015 or 2016. So my concern is how do we cover 
the Air Sovereignty Alert mission in those outyears.
    The Chief of Staff has indicated that there is a Department 
of Defense obligation, and he has pledged adequate resources to 
make sure that that mission is covered. There are ways to 
approach the requirements of that mission. We know that 
currently the Commander of NORTHCOM, General Renuart, is 
conducting a study on their current requirements, which will be 
the first one post-9/11, to determine if 18 is the required 
number or if it is perhaps more or a little bit less.
    We should have that report out here pretty soon. And when 
that report is filed then we will be able to relook our ability 
to cover the Air Sovereignty Alert mission, especially as we 
approach the 2015, 2016 time period.
    Mr. Johnson. Thank you, sir. With respect to the retirement 
or the accelerated retirement of the legacy aircraft, how 
involved was the Air National Guard in the analysis that led to 
the reduction?
    General Wyatt. You are talking about the 2010 reduction 
from 2,250 to 2,000, sir?
    Mr. Johnson. Yes.
    General Wyatt. We were involved, part of that process, the 
Air Force corporate structure allows participation by the 
Reserve Components all the way through the process. Again, 
there are debates, specifically how a particular reduction will 
be made, but reviewing how that was done, it was shared across 
all three components, all three components took reductions.
    Mr. Johnson. Was that decision made before or after the Air 
National Guard's involvement?
    General Wyatt. The final decision was made after, with our 
input. And, like I say, the Air National Guard probably didn't 
get 100 percent of what we wanted. The same thing could be said 
about the Air Force Reserve. The same thing could probably be 
said about the Air Force. It was a collaborative effort. We all 
shared in the reduction to some degree.
    There were some good things that came out of the reduction. 
For example, some of the older--we had a Block 25 unit in 
Duluth, Minnesota, for example, that was able to upgrade to 
Block 50, F-16s that were being drawn out of Spangdahlem Air 
Force Base, Germany. So we were able to upgrade some of the 
models at some of our units.
    There were other fighter units that lost their airplanes, 
but we have been able to roll in new missions, emerging 
missions. The 150th Fighter Wing in New Mexico is an example, 
currently losing their F-16s, but they are transitioning into 
C-130 and HH-60 special operations training mission. And they 
are doing a great job in that transition, working with the 
active component.
    And we seek to do that with all units that may be losing 
aircraft, either to upgrade the aircraft or transition them 
into an emerging mission that will take advantage of huge human 
capital, great experience and skills of our guardsmen, which 
remain in demand whether we are flying platforms or not.
    Mr. Johnson. Thank you. My time has expired.
    Mr. Ortiz. Thank you so much for your service, and we will 
take your recommendations very seriously. I think that they are 
very sound. We don't know where the next conflict is going to 
be. We are going to have to keep you well-funded, well-equipped 
and well-trained.
    We have an excellent committee here, subcommittee, that 
wants to work with you.
    Like I said, I had a chance to serve on the Army Reserve 
when I came out, and I think that what you see, the personnel 
that serves either on the Reserves or National Guard are cream 
of the crop. They are well trained. They joined because they 
love their country and they want to be of help and service, and 
we just want to say thank you so much for the great job that 
you do and we will keep working together.
    If there are no further questions, some questions may be 
submitted later for the record. This hearing stands adjourned. 
Thank you.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]



=======================================================================

                          A P P E N D I X

                             April 27, 2010

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 27, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 58105.001
    
    [GRAPHIC] [TIFF OMITTED] 58105.002
    
    [GRAPHIC] [TIFF OMITTED] 58105.003
    
    [GRAPHIC] [TIFF OMITTED] 58105.004
    
    [GRAPHIC] [TIFF OMITTED] 58105.005
    
    [GRAPHIC] [TIFF OMITTED] 58105.006
    
    [GRAPHIC] [TIFF OMITTED] 58105.007
    
    [GRAPHIC] [TIFF OMITTED] 58105.008
    
    [GRAPHIC] [TIFF OMITTED] 58105.009
    
    [GRAPHIC] [TIFF OMITTED] 58105.010
    
    [GRAPHIC] [TIFF OMITTED] 58105.011
    
    [GRAPHIC] [TIFF OMITTED] 58105.012
    
    [GRAPHIC] [TIFF OMITTED] 58105.013
    
    [GRAPHIC] [TIFF OMITTED] 58105.014
    
    [GRAPHIC] [TIFF OMITTED] 58105.015
    
    [GRAPHIC] [TIFF OMITTED] 58105.016
    
    [GRAPHIC] [TIFF OMITTED] 58105.017
    
    [GRAPHIC] [TIFF OMITTED] 58105.018
    
    [GRAPHIC] [TIFF OMITTED] 58105.019
    
    [GRAPHIC] [TIFF OMITTED] 58105.020
    
    [GRAPHIC] [TIFF OMITTED] 58105.021
    
    [GRAPHIC] [TIFF OMITTED] 58105.022
    
    [GRAPHIC] [TIFF OMITTED] 58105.023
    
    [GRAPHIC] [TIFF OMITTED] 58105.024
    
    [GRAPHIC] [TIFF OMITTED] 58105.025
    
    [GRAPHIC] [TIFF OMITTED] 58105.026
    
    [GRAPHIC] [TIFF OMITTED] 58105.027
    
    [GRAPHIC] [TIFF OMITTED] 58105.028
    
    [GRAPHIC] [TIFF OMITTED] 58105.029
    
    [GRAPHIC] [TIFF OMITTED] 58105.030
    
    [GRAPHIC] [TIFF OMITTED] 58105.031
    
    [GRAPHIC] [TIFF OMITTED] 58105.032
    
    [GRAPHIC] [TIFF OMITTED] 58105.033
    
    [GRAPHIC] [TIFF OMITTED] 58105.034
    
    [GRAPHIC] [TIFF OMITTED] 58105.035
    
    [GRAPHIC] [TIFF OMITTED] 58105.036
    
    [GRAPHIC] [TIFF OMITTED] 58105.037
    
    [GRAPHIC] [TIFF OMITTED] 58105.038
    
    [GRAPHIC] [TIFF OMITTED] 58105.039
    
    [GRAPHIC] [TIFF OMITTED] 58105.040
    
    [GRAPHIC] [TIFF OMITTED] 58105.041
    
    [GRAPHIC] [TIFF OMITTED] 58105.042
    
    [GRAPHIC] [TIFF OMITTED] 58105.043
    
    [GRAPHIC] [TIFF OMITTED] 58105.044
    
    [GRAPHIC] [TIFF OMITTED] 58105.045
    
    [GRAPHIC] [TIFF OMITTED] 58105.046
    
    [GRAPHIC] [TIFF OMITTED] 58105.047
    
    [GRAPHIC] [TIFF OMITTED] 58105.048
    
    [GRAPHIC] [TIFF OMITTED] 58105.049
    
    [GRAPHIC] [TIFF OMITTED] 58105.050
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 27, 2010

=======================================================================

      
                    QUESTION SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. You have been quoted in the press calling for as much as 
$1 billion in additional funding over the next five years in order to 
maintain the ``operational'' status of the Army Reserve. Is that still 
your view?
    General Stultz. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. We are increasing funding for training time and 
equipment sets so that we can fund the train-mobilize-deploy-reset-
train model anticipating that the Army Reserve and Army National Guard 
will continue deploying every fifth year for sustained conflict. We are 
increasing this capacity even as we begin a massive drawdown of 
deployed Reserve forces in Iraq this year and Afghanistan next year. 
What will happen with this increased capacity after Iraq and 
Afghanistan?
    General Stultz. Given the fact that there will be a drawdown and 
Army will continue with train-mobilize-deploy-reset-train model, the 
Army Reserve anticipates our increased operational capacity will be 
applied towards expanded Institutional Support missions, Domestic 
Support Operations (CCMRF), OCONUS Domestic Support Operations, and 
Theater Security Cooperation (TSC) events.
    Mr. Reyes. In 2008, the Air Force stated its requirement for 
fighter aircraft at approximately 2,200; this year, the Air Force 
reduced this requirement to 2,000. Previous witnesses from DOD and the 
Air Force have stated that this reduction is made possible, in part, 
because traditional fighter missions may be pushed to UAVs. Is this a 
realistic assertion concerning ASA missions? What ASA missions could be 
accomplished by UAVs?
    General Wyatt. Remotely Piloted Aircraft (RPA) may have a role in 
the future of homeland defense, but not in the sense that a traditional 
manned fighter performs in the current environment. Our current RPA 
capabilities are best suited for surveillance and targeting fixed or 
slow moving ground targets. Our increased use of RPA capabilities has 
allowed us to transfer the other traditional requirements from fighters 
to these assets; however, the dynamic environment of ASA does not fit 
as one of those traditional mission sets.
    Mr. Reyes. I understand that the Air National Guard and Air Reserve 
fly the overwhelming majority of Air Sovereignty Alert (ASA) missions 
in defense of the homeland. I also understand that you fly these 
missions with aging F-15 and F-16 aircraft which are nearing the end of 
their service. In light of continuing delays in the F-35, are you 
concerned with your ability to continue ASA missions? Do you have 
concerns about the apparent tension between planned aircraft 
retirements and the fielding of new aircraft to the Air Guard and 
Reserve?
    General Wyatt. Thank you for the opportunity to address this 
committee and to highlight the significant role the Air National Guard 
(ANG) plays in providing for our Nation's homeland defense. The ANG 
operates 16 of the 18 Operation Noble Eagle ground alert locations. 
Many of these sites are operated by units equipped with some of the 
oldest aircraft in the Air Force (AF) inventory.
    The AF has recently reassured Congress that defense of the homeland 
remains DOD's highest priority mission and that the AF will continue to 
steadfastly support Operation Noble Eagle through the Total Force 
concept as it has since 9/11. The ANG concurs with the AF assessment 
that under FY11 programmatic assumptions, along with small investments 
in the F-16 Block 30 fleet sustainment, the impact on the ANG Homeland 
Defense missions are minimal through the FYDP. Aggressive management of 
the F-35 program combined with 4th generation modernization and service 
life extension programs are being reviewed to reduce risk outside the 
FYDP. While I cannot speak to any F-35 program delays, the AF has 
acknowledged that additional 4th generation aircraft will become 
available to recapitalize older ANG fighters as the F-35 is fielded. We 
continue to work closely with the AF to ensure the ANG is a part of 
this process and included in any recapitalization plans.
    Mr. Reyes. We are increasing funding for training time and 
equipment sets so that we can fund the train-mobilize-deploy-reset-
train model anticipating that the Army Reserve and Army National Guard 
will continue deploying every fifth year for sustained conflict. We are 
increasing this capacity even as we begin a massive drawdown of 
deployed Reserve forces in Iraq this year and Afghanistan next year. 
What will happen with this increased capacity after Iraq and 
Afghanistan?
    General Carpenter. The same capacity built over the course of the 
present conflict will be sustained, rather than increased, through the 
funding of the Guard and Reserves as an operational force. This 
sustained readiness level will maintain the National Guard's ability to 
continue the same capability to respond to both overseas and domestic 
requirements.
    The 2010 Quadrennial Defense Review states that the DOD ``requires 
vibrant National Guard and Reserves that are seamlessly integrated into 
the broader All-Volunteer Force'' and that ``our nation must have a 
force generation model that provides sufficient strategic depth.'' The 
train-mobilize-deploy-reset-train model (Army Force Generation, or 
ARFORGEN,) is the result of this initiative.
    Over the past eight years, the Guard and Reserves have made 
sustained contributions to ongoing operations. The additional funding 
for training time and equipment sets will allow the Guard and Reserve 
to sustain the Operational Readiness that has been built while 
supporting the current conflicts. Furthermore, the Quadrennial Defense 
Review acknowledges that ``using the National Guard and Reserves in 
this way will lower overall personnel and operating costs . . . ''
    Mr. Reyes. How much less dedicated pre-deployment collective 
training at the brigade level do Reserve and Guard units receive than 
their active duty counterparts?
    General Carpenter.
    Reserves:
    The Army is unable to provide sufficient Live-Virtual-Constructive 
operational environment training experiences for Army Reserve CS and 
CSS forces. The Army Reserve has developed the Combat Support Training 
Center (CSTC) program to meet this requirement prior to mobilization 
station training. Army Reserve is synchronizing and integrating with 
Army this capability with its Combat Training Center and home station 
opportunities (e.g. CASCOM's Command Post Exercise - Sustainment) to 
off-set this deficit. The CSTC program is currently resourced by 
Overseas Contingency Operations funding. If the Reserve Components were 
no longer funded for this pre-mobilization training capability, more 
post-mobilization training time would be required to meet the same 
standard as their active duty counterparts.
    Guard:
    Active duty units train to brigade level proficiency while the Army 
National Guard trains to company level proficiency with staffs trained 
to level organized. The factors that limit our capability to attain 
company level proficiency have been tied to chronic under funding of 
our operational tempo accounts. Shortfalls in base training programs to 
include operational tempo accounts have been masked by the use of 
overseas contingency funds.
    During the three year active duty Army Force Generation (ARFORGEN) 
cycle a unit is expected to receive two Battle Command Warfighter 
exercises and two Combat Training Center rotations (like the National 
Training Center). The Army National Guard five year ARFORGEN model only 
provides for one Battle Command Warfighter exercise and one Combat 
Training Center rotation. Currently, only brigade combat teams that are 
conducting full-spectrum operations are scheduled for Combat Training 
Center rotations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. Are there any concerns for recruitment and retention 
of Reserve doctors? Are there any plans to address the need for Reserve 
doctors to continue to pay their private practice expenses when 
deployed? Is deployment pay adequate to address the professional and 
personal expenses Reserve doctors must continue to address when 
deployed? Are there solutions outside of the Department of Defense to 
fix problems in the system?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Kissell. Is there a shortage of C-130s in the Air Force?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Kissell. Are states affected by the C-130 restructuring and 
``loan'' arrangement going to have a decreased ability to react to 
emergencies within the state? If so, how are the risks mitigated?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Kissell. Are you working alongside Major General Byers to help 
determine the location of a fourth Silver Flag Exercise Site? What is 
the status of the selection committee? Have you considered Stanly 
Airport and the 145th Civil Engineer Squadron?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Kissell. I recently sent a letter to General McKinley 
addressing my support of opening a second ChalleNGe Academy in North 
Carolina. Major General Ingram and the North Carolina National Guard do 
a wonderful job turning young lives around at their existing facility. 
Major General Ingram has a great plan to expand his capability and 
reach more of our at-risk youth. What is the timeline for a decision? 
What criteria are you basing your decision? I appreciated your response 
to my letter, but would like more details.
    General Carpenter. [The information referred to was not available 
at the time of printing.]

                                  <all>

</pre></body></html>
